WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1675
Melvin L. Phillips, Individually and as Trust Oneida Indian Nation
(Petitioner) V. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
(e) I am filing this waiver on behalf of all respondents.

O I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
O I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: fh tad he. Cute

Date: 6/4/21

(Type or print) Name [Yjchael R. Smith

© Mr. © Ms. © Mrs. O Miss
Firm Zuckerman Spaeder LLP
Address 1800 M Street, NW
City & State Washington, DC Zip 20036
Phone (202) 778-1832 Email msmith@zuckerman.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Woodruff L. Carroll
cc!

 
